IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES DEPARTMENT OF HOMELAND SECURITY,
ET AL., PETITIONERS
v.
STATE OF NEW YORK, ET AL.
_________________

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 7th day of October, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,185
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
October 7, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 7, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

UNITED STATES DEPARTMENT OF HOMELAND SECURITY, ET AL.
STATE OF NEW YORK, ET AL.

JUDITH N. VALE
SENIOR ASSISTANT SOLICITOR GENERAL
NY ATTORNEY GENERAL’S OFFICE
28 LIBERTY STREET
NEW YORK, NY 10005
212-416-6274
JUDITH.VALE@AG.NY.GOV
JULIO A. THOMPSON
ASSISTANT GENERAL COUNSEL
VERMONT OFFICE OF THE ATTORNEY GENERAL
1711 BLISS ROAD
EAST MONTPELIER, VT 05651
802-828-5519
JULIO.THOMPSON@VERMONT.GOV
GEORGIA MARY PESTANA
INTERIM CORPORATION COUNSEL
NEW YORK LAW DEPARTMENT
100 CHURCH STREET
NEW YORK, NY 10007
212-356-2400
GPESTANA@LAW.NYC.GOV
CLARE E. KINDALL
ASSISTANT ATTORNEY GENERAL
CONNECTICUT OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
165 CAPITOL AVENUE
PO BOX 120
HARTFORD, CT 06141
860-808-5261
CLARE.KINDALL@CT.GOV
BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
NEW YORK, NY 10012
BAZMY@CCRJUSTICE.ORG

